'f

USCA4 Appeal: 20-4432

Doc: 55

Filed: 04/21/2021

Pg: 1 of 1

Appendix A

• *4

FILED: April 21, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-4432
(5:18-cr-00318-FL-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
BRANDON MARQUIS JENNINGS, a/k/a Smilez, a/k/a Smilez Finesse, a/k/a
Beezy, Mustafa Bey
Defendant - Appellant

ORDER
The court denies the pro se motion to relieve counsel from further
representation on appeal.
For the Court~By Direction
/s/ Patricia S. Connor, Clerk

>r

Appendix B
THE sworn Op dUSTxCg,
Sown Von. w.oVcm of \cv\f~L Redejrr^prio^TliVir-^j^
i

jTorwho it mao. concern, .
...
I'Tnis \et-TCr .s usntven on behalf of ex re\ Brandon Marq^o
denm nQ3,ui'oo ujos ujron^Poiia convicted in a united Staves
y.svric-VTiourr For Sex traff.cwng and sex troffxvvnG related
offenses on -Vine i3Vn dociof JuneySlGlRfCase No>f5n5-cr-3i3"FU~0.
The cose iS curren+iu pendina appeal vn Vre fourth circuit
(case r^o.ao-*1*13^ The pactyscrnes Vo yu seeit»,y uyrass\sVance
Icoifn several issues involved in Vne mat Vet.XSSues ran^nc^ from
|doubie Jeciparci^,abase of chsereV.an,prGsecutioria\ misconduct,.
! ineffective assistance of counsel, professional miscxaduct;
jinefPective assistance of appeal counsel/deprived line ricy-Vo
ones can defense - Tne par taboos arrested on Vine
!ur. messes m
srzth chqof J-jne-oiOi'7 For an oPPense that occured on V'ne Rtn dagof
idecerr.ber(i3.ci6/ but reported on -the IbVh dag of decem ber, AGIO, Vo Vine
RateiQFi Ftoi.ce DepartmenV DqTQuSn.a sVro.iVfT.S./TX./TauShia chaconl
iifiquirinq an assault and request.no. that it be reviewed For
jhuman -Fraffich.na^connecv.onsyu5hich svxxuSdre relevant connect-.on
jbe-tueen The assault and human Vraff icvVincy As shGusn in the
Supplement repor t bg RoAe\<gn Police Depar tment- the incident
star ved and ended on Vne ^th dau^of december, 2.016/ bur uuas
reported an the lath dayf decembeq £016 and V'ne Ibrn da<gof
idecembecaoiG-Tne report s'noms that Vne human trafficning
idenvbs its conducv from V'ne assauVt,and it presents a. clear
IShcuuing that nothing^ actoaiUghappe n an Vne lb tin dau of
december, 51016, neither Vine assault or Vine human traffTciv.fy
ibut a report inquiring its conduct usas made on Vne ibVn daof decernber/a.oi6.courtnea R.Fountveroc^i Vne attorney for
the partyn the state prcceedinypote to Vine partig about
j-fhe convents leedim to Vne charge for assault,and-the
I! reason ujhg the bond ujos hiajner than normal for assaul t

I

!

a of- i 3Avercye bond for assault in uoane ccun^is j> \,OGO- oo, bur the
:

pOCT^ band ooas set- at $<3.0^000.00/The a-ttcrae^in Formed the

—

'por+u oF the reason For Vne out royeous bond uoas that human

ry

1 WaFficnina ocas attached to the assault,-the partyVnen m pa red
|Vo Vhe atTCrneq^ them ne cucuid be ar.Vwn yvG accept- a p\ea. aF
Sim pie assault and time- served \n exchan

he man traffieni

-Vo void Vne
¥
/The attorney informed the party that- Vne

I

district at torney had agreed -Vo Vhe pea under Vh e conditions
jVhaV Vne part;unG lcr^r en^ocje m anymore cr vavnaA acts, as

§

Vr a as stated bey Vhe at strict a v V or oeyr here's ncthvny use can
do for ycu if V'ne Federa\ apvemmenT comes For apuj so if your

1

;nof done be done^ond on the 3rd day of Auyust; 3.0V7; Vne distric t

i

attorney for usaite ccun-ty agreed to Vhe party s t 1 pc\av>ons

f

s

and re\eased V'ne parry hme served-The party received a number
of phone caits from different ouomen indicati ny then- detective
jroberv pereira coos constant ly contact iny them harass\oyabouT
iVhe partly ushereabouts artd puesticniry the os ome n about Vhem
involvement usith Vne par ty. one osoman bey Vhe name chances
abson mentioned Vo Vne patty that detective roberV pereira
braved Vo her' ib Vrunho that modum shv is yomy to Save 'mm,

pox'- Vy and shcojvncya.n extreme have Vocxxxrds
imusiims.Tne patty after nav.ny severa\ disturb! ny ph one caws
referring Vo Vne

Wien contacted detective pereira and cpesvxoned h.m as Vo
he ocas harass my ojemen prevonmythe ujomen Vo s ay
3
dtix nap VhaV never happened Vne partu. Vhen xinformed detective
aJh

/

!

perexra VhaV he aicc id Sue him vf he

i

■continued Vo harass.

The party after commumcariny ur.Vn detective roberV
pereira sent a copy of his \eyu\ status identifying him
as mustafa Bey of Vne asxan race and a member of the
! moorish a men can common'. V

3)

5

3 of-13.
Uhic'n is of berber ances-rruj rnroua^n fne sa'aclicxn dapas-va^
of Ahmed BiVc^asirn and c^oeen charlotte meaanburc^of europe.
Dau^ later an arrest uxxs mode on the parh^ m retaliation to the.
p'none call that loos made..bu^ fne pcvrtu^ and documents indicati
fhe partu^s leoj,aA Status foot alas sent to detec-twe robert
pereira. An arrest concerning -foe reboot mode on the i5tn
dau^of decemtoer, aoi6, ujos nous in progress on fne Hfn dau^of
masi,aoi3>during-Vne arrest the p>arh_^cp>estiGned officers for
a uoarrant Sloped bu^a ar+\c\e 3 sec a‘ ducic^e,ui'nen trie officers
coo\d not mane a s'nouivnc^of fne ujarrant -Vne parta^ confacfed

"3

Ril. While fne partc^uoas speah.nc^usifn dispatch fne officers
made threats -vo do barm tx\^force uuvth fheir
if the pactc^
did nob cooperate ur.th fnevr commands , fne parto^fnroo^n fnrecxr
and coercion cooperated unth officers.The par trashed off icers
i f his sister caj\d apt numbers oof of his p'none cun.cn ocas \n tbe
home; the officer Stated that be ucculd uJnte numbers docun
from the phone and aopeed not to confiscate -the parties phone
but iaimed, at\u after ujritio the numbers the officer hnen seized
ucas then released
the partes phone ujvtncuf a ujarrant/ -the par
-fo officer sent bu^ dispatch and booked on the hfn da^A of mao^,
aois, for a human traff ichih^ offense that uoas inquir ea in the

3

5

same report as fne assault that the part copied -to so that he
coufci avoid human fraff-icKinc^ Charts.on fine 3fn dau^ of August
aois, fne human traff icnirn charqp uuas dismissed bu^-fne stat-e
and-the partu ujos then federaWu indicted for its conduct cohich
involved a rScount indictment > The partu^uoas tried on au \3
counts on fhe \Ofn daa^of Oune/aoi<t/ foUCLOinc^ a tdo^ trial
the parto^ tuas convicted of all \3 coonfs ujinich involved tine
Same facts fhe partu^ pled to on fhe 3rd dau^ of aoc^osf ao 17,
turner indicates that the partc^ uoos fried fuoice in a state

!

M

of

ia
jcourt tor toe same offense, and beiry-Vnat toe federal
liaclictmenf
derives \fs conduct from -roe arrest made on toe
!
Mtn dayrncu_yaois, of uu'mch uoas barred due to double
•Jeopardy, it is nou) -to be deemed uncGnstitor\cnal and
I Faciallu. void* Let vt be noted that all evidence obtamed in
| to is matter is considered fruits of tine poise-nous tree and is
ito be dischoryed \n it's entirety.The partyujouid also Vine toibnno
itc uour attention of- toe partys non - ccooerati ve participation
3
in ccnseiTifiy ujitn neither attorney william 'wocdusard vvebo sr
and WiUtQiTi We ed oath Webb Jr, /vs \t is \au Feu yexpiained
I
iuncooperative behavior mci constitute a va\io uawtr of nynt
|to counsel. Althcoyn fne party nas not once consulted unto

1

Neither attorney fneyve entered pieas on toe behalf of the l
I party ujitocot first consult vry ujvtb tme party to insure
'that Fr,e party understood these verity of toe piea .'W’nen asvied
|oF by toe party for fne attorney, to \denti fythemselves bu
t
iuuay of bar membership card and cotYi of office, but fne party

I

1
1t
%

yas disreyarded.Tne party inquired to uiWian eJocdujQcd tcebb
ijrs of bis obligation to toe courts in response be ayreed to be
'obi,yated to the court, avid ch is sbocen in his ciosvny and opennny
aryament duo na trial us men be told toe dura be cuasnt there
jfo represent fne defendant/This nous turns me to a hearlny gh
!march 7th/30ic/,- to proceed pro se.Uurvny toe reodmyof a sopersedy f
|indictment by mayistrate dudye dames t .dotes toe party
(interrupted and puesticned the Judae is that uuhat uoor saum
Ll clid> MaaAst-'ra.+e uudae Gcx^es response uoas Yes,
!indicates that the party uuas Found cy. Ifu before be\
jarraiyn. on the atrd day of April,, acto, a nearmy uxxs held for V.
Q second superseding indictment; ayain as mayistrate dcdye
Ica-tes uuas re ad mo the indictment toe party interrupted
l

5

to

5 op i a
and poeshcned the <j

•/

<2. is that robot i_^>uT 5a1
x d\d
^ V
; Judcjs Glares responded 'no; its umat u^oJve aUedo^&iu^d iO j -the
parfi^ then responds 'hood answer, because when x ashed p<oc
this puesnon derm c^the Pi-rsr Super sedincyvnchcbment u,cc said
S'
Wnliam
pes, P'mdmc^ me Qphtv^ before x mas arru\qnj attorn
woodward webb dr then Shouts 'Vio Vie didnt' which peeves v;uliarn
'WocduJard webb jr conspired with itiQ cyStrate Jodap Gsates to

PH

’ deprive -the partc^of the r 1 cyit to a Pair trios ujhde. snouj;nc\
con pvete. ineffectiveness ard his obhc^aticn-to fne court.xt 15
deemed accurate cUhen consicierinet an att-er neu^> cbV>c\a.t\on 13 to
;be to 'ms client and raises senoos concerns ct prejudice
•When Sirnpiu perf-orrmna tor the courts anclnof -fne client.
Thec\ve mode Such a c^rHof effort to user \\ with tbe court \n
depnvma the parts oP rights. As if nos been braved fne parfu^
:ujqs no-fud ioujed -the discoveru^oar bradu mater\oA Without
ispearaba^ lui t‘n attorneps wifiiGvm vvocduuard Webb sr and
W> mam woodward Webb on »n tbe courts attempt to aam
^ :tiur\sdiction.The part^ notes that be has never consulted
UJifh neither atrorneu., but it was later said bu^ the at tome V
i+hat tbe Judcje Louise w. f lanaapn issued an order removing
-tbe partu^ Prcm From disc eve rcy an order that cues never revealed

T

\

jto tbe par toywhich also led to WiLiam Wccduoard Webb Jr ami
|Wi \t-.GvTi Woodward Webb 3r ujbrodihC^ brack^ material Omen
I proved tbe par tuyn nGce nee, whereas i t cuas later discovered
4hat d.C. udlncm did net testi f^at court -told officers tbat
She did not nave sex ujs tb anc^oP her cuenio; but this information
ajas cuitbeld and tbe partc^cuas convicted oPM counts sex
:-trapf;citing J,c. Ldben Such counts should not bave made
sir to the incii'ctjT.-ent-.Xf. lugs said bq ewterneus wibiam Wccdxard ,
;WeDb sr and ■wiiiia.m Woodward Webb Jeon tbe da<p c-P trio. I
/
!

#
/

!

G Op \3l

fVhat counts rn^vvinc^ iicC. LOxW be dropped because J.c, \s not
ires ti Pu^\ro , but instead E-noc bicndei ahcosed'TauSX'v.a
i
: fbrrcot +o cyve ca cor roborfut(YX^ teoT\rnonu^ that did not
.cor robercxre Lu\rn o c. stcdeonecr rnat uios ^ven to
bFPicers . Evidence proved Taushia strait to be rne one oj’no
I sex rraPbcKed J c - dou^ce vo^ camptoe\ i, ujh\cn \s more than
lenooajn reason to o^we a perjured te ohmenand ouitnoldincj
bradci material caused bu^ the ahtorneut, neip<ad in tine
;conviCt\or> and the prevail mc^o f- the perjured testimony
ccrroberated bcytcujshia 3rfvxib. As it is \aujto\\u^exp iained
“ '
tine SiXfo amendment conshtoTiGrallLysnT-,tie's ore charcpJ luitp a
prime to tne ass, s Torre of rconsa, and compliance. ujitii this
,
s
const itoticnal mandate is an essential jcrndictioraX prerequisite \
to a. Federal courts authors to, to deprive
an accused of ms Ufe or
i
tbertcyHot oruoys it a due process violation iujhen depr wmc^ the
;partu^"cf brodu^ mater tod, but it is ofesclutv^ impossible to depr ive
a patve^of life or libectcyoiiVncut compliance .The pevetu^ ooaj turns
[to the ubibuirul armiaipmenr of ujhian proceeded -to triaCon -the loth
itia^ot Jure.
for aihich attorneys Wild am Wcocktord Weob 5r
and william 'Wcrduicrd Webb Jr entered a piea of- not o^.Wu^ushicn
led -to a Jar a select ion oFushicn the pur reruns net caicuaeb Vo
ipartiCipute.- Tne attorney William Vtecduscvrd Webb or then stated
rto the Judap Louise wticnccp’O that it uxyuxa cause prejudice
to aUcui the parvpto select the OaruaLet it toe noted that the
entire Jurp^ besides tcuo Jurors auereoF euro peon descent, ond
|eac’v» of the victims uvere aiso earopean descent,the par tu^inever
iuuaived ancyr!pints,-but caae deprived ot man^The laaiexpiG
the purpose of the sixth amendment- vs to protect the unaided
lawman at critical confrontations anth hub expert- cdvecsorUy
the Government,

i

!

;
1

I
i

\

3

70F ia.

S.
i

!

df t er the adverse posi^riGns of a^verrwnen-t arid deferdaot; have solidified unth respect to o. particular cxueaed crime and
jto act ujvrtioot first speahvnc^ cuitn the partuxusoovd be in
complete violation of the sixth amendment and deemed
junconstitaticnoi -Tne par tu^br irop to ucur attention of- tine
jsiXfn amendments right to counsel ,uihich implies that one sna\\
hove the right to represent himself, and 1 f be encases, the right
to the assistance of counsel ,Tne partcgcoos denied this rignt
OJhereas be moved for self representation, but coas denied and
‘instead ojas forced tine option to assist himself in ms ooir>
defence, cointch is not granted in the constitution and strips the
partg of his rlahts uJbiie transferrma them to tne coor ts *
Assist himself in rv.s ocun defence is to not be contused uuvth
assistance of counsel, one \s to assist the attome a3 to tbe other

5

3

i

3

assist 1 •ocyOnxess one is incompetent
3
it is in dire Violation of the constitution for one to assist- himself
in his ou>n defenceX uuii Woe to also address an oral motion to
sequester outnesses uihich uaas filed on the lOthdagof June, ao\q ;
the dag of trial, bg attornegs Will 1 am WooduJard w/ebbsr and
iWilliam wccdccacd weob On The motion coco chanted txg^odge
Louise w. Flanagan.on the ilthdagof June,<201^,duringtrial a
ipartiai testimariguuas gven bg Christina Albina before the
!court moved ordenna lunch cuhich she cuas questioned bg attorne
I
1Will, am woedujard webo sr i f Tne had testif ied to -the errand dor
i
' intoxicated on droop and alchoholjher reponse coos 0^3 Moiig an

consisting of the exttome

3

I

3

s

I

I
j

I
l
I

s$
I

i
*
i

\

I
si

i

IS

1

1
a

l

T;

s

H

1
i

s

t

is
! lipuor/At the return from lunch vt ujos mentioned to the partg
S
jbg both attorneus William Woodusand Webb sr and william Wcockcatd . l<i
3
l
iuhCb
Webb
Jr
of
uiitnessing
the
Governments
uu
it
nesses
having
i
5
•together, upon cross examination of Christina Albino,tagattornegvi
*
For the partg items inquired as to houi mangof the women she Knecu, /

3s

i

!

S Of- Iol
!

She resporcied touc of them’, it ujos further (questioned \f she
hneuj anu^of the other apvernimeah uditnesses -that 5ne had
luncn uuiTh,5ne -then resporch Oh :x dust met them tcricuqj not- on'n
does this prove cr «m,na\ contempt for nor compiuvnc^ UU i rh court
jorder -Vo sequester outnesses, teor i f also proves one. ap-vernmentd
jinvowemenf and conspvracu^in vioia-tinci the court order -to

3

jsequester or. messes, on -roe grounds -that cheistino. Albino
|on!i^hneos -Vooo of the uuifaess-es pr\or -to vioiatmc^ -the court
jorder,- and the record urhl reflect- that nevtner of the other
jus if nesses hneaj of one anothers \deot\tUy and the fact that
hhe'Ynef them fodaa as she pots \t c\ears a-n^su^esticri

5
I

jthat She could have met the» aptnesses prior -to triad and
|
ShooJinQ
i
that someone of iauuful author \ t Such 0.3 the
;a clear
3
jprosecuter errn c. 0lonbe\ introduced them after the commence ment
iof trial .It nous reuses concerns as to \ts tree purpose for v\Gia-V\nc^
■Such Court erdem usmen couud have stronc^o^ been used for
I fabricated testimonial purposes„ .If oasg raises questions of
abase of discretion beih
Louise 'W- f \a.oac^a.n
for f-aiiare to hold contemners in contempt for violations
done in her presence,As the lacs explains criminal contempt
Sanctions are appropriate, for uiitoesses violations of courts
jseqoester order, and it is farther explained trot this specif ic
'order of the courts is an essential element of criminal contempt,
and to vapore such ccntemptu ous behavior logo id be abuse of
discretion on tne dadoes beba\f. violation of such court
Order cannot be curea bu harmless error and due to its
wounds for an acquittal,vacate
|! taintedness it’s clear\
land reversal of duda^ement. Neither of the covtnesses i
prosecutors, or ductus m the matter can be used ujithoo-t
beioc^ predud ice.

\

j

9 OF U

i

A detention hear my olios held on rne llitn d

o9- Au

St; 3.0V6
y
dunny the heanny ttie parvu^'nond deuevecedTa copyoF

dco u men tj

coo ta.vn vny the

I

i

purtys \ecyx\ SratuSj £r»n c/3\onde\

oF the U-S. yjvernment Sinouvs'Those are probablydcx-cments
stem ny hes scvereiyn,but "neb not. 'neb an U.s cirizen Le tit be noted that trie record reflects tnat the party has a iso
provided domestic medical records that idenhf yt'ne partly as
Mustafa Bey oF the asian race,and iet it be noted that
-these reccros coere provided by loJb corps and He. FJcrth
Carolina ■ iaboratoru of public health, tohich are .bofn reliable
sources nao^ardina faentira \n the united states. As it* is
buxFuU y explained per t'ne asiatic barred zone of- ihaM Act,
U S. residents -that are eneiiyfoie For immiQration are not
auouaed U.S- citizen Snip, and to mane SuchTaryument

3

Hes ci u-S* citizen oithout FactuaX proof is yco-uncls For
prejudice ajhic'n pieces the burden oF proof- on the u.s,
vernment and before proceed vocythat burden must be met =
T
Xluri
a. Faretta inearv
on tne 7th dau. of march * 3.0is; the
”3
party ora\\u moved For status hear vny,i and ayavn by
Lent ten motion on the \8th dayaF march* aciS* cuhie'n uaas
disregarded aicoy uovfn a motion For \acwof jonsdict ico.lt is

3

i!
!
!
3
i

;
I
f

i.
■

!
'c

1

i
i

j

I

lowjfciunexplained”-Hnot before the aUeopHcas of cxix^Crime, can
be tecp^i^drrainedlj pTOsecured^or od Jijdicated thebsccused
must First^ be properly iden-riFied,and the \au>F«\ Jurisdiction
Over 'that person. must be rnet4uah\ch ac^am the burden of proof
is on -the cpverrrnenb For uihicn has never been proven
ana in
r
d
dire violation oF the partes substantive ncyit and deemed
Linconshtuticncd ’ Its also been said beythe cyover n mentis
Enn c. Siondei on severed occasions -that a order teas issued
by -the cour ts in qair my that the party be denied discovery,

;

■

'

i
too fi a.

i

!

a order 4nat cuas never received fcx^the pacto^ As it vs \au>FuWu
explained, deprivvoa Vne par-TU^cF ex cuipa tor a evidence that is

s

f-avorabie in ones deFense and or ui'oat is vsncuon as brada
material is a doe process violation and is vn clear violation oF
-the constitution, "it is absolution impossible to properly brinc^
an adequate defense to standi trioA uiitnout a discover u^»
Dunna •trial on the 1jH'n dao^ot done, 3LQ\3 ( -,t esaas admitted and

i

J

\

also proven t> a preponderance oF tne evidence that the qjcrv^r noneOT^ 1\

i

uu stress Jamie1 toosni-ord f J .3., Rvv.l recanted i 'Dut tine Qpvernment
bi_^ uuao^ oF misconduct stated that tne toitness did not VSncuu
LUhat recant mean, uahich vs qrounds -to c^uestion 1 F fne

1

1

i

qpvernments uuitness understood ana of tne. c^uestions or
proceeding •that had been presented due to the incompotency
OF understanding it’s O'sn piea. to recant. As vt vs iauiFuii ^explained

i

i

the prosecuter mau^ not vouch For the credibilitv^oF qpvernment
i-o,t nesses especial lu^uuhen the su^spstion to recant usas advised
bq^ the witness counse \, uJhicJh also provides a dear sncuuinc^ oF
■the prosecuters invasion on attorney ewent relationship and

i
f

prosecut■ ora\ misconduct to persuade a dorFor a conviction
Evidence used -to prosecute tne partu^lugs intrinsic in nature
and gained its relevancy From perjured testvononves.The cp vemment 5
antness taush.a Stro.it fT.c;(X3,jTaosma Chacon 1 C\ove a
ccrro’oeratinQ -testmnond that uios to carroberote uj. th
statements Tyven
Jo^eiup camiopeil. Brcdu^ M-aterial that
ocas uuitheld Guy t he pactuy attorneys ,uihlch u>as later discovered,
provided evidence that Jo^eii^n camdpeii d.ci net have sex For
moneu uuhereaS she stated that she didnt have sex ujvtin an^
oF her civents.

)
\
i

!!
!

i

li Of lot

}

1

Let i t be noted that evidence provided a+ tna\ determined Tausnia
Strai t to be o^iViti^of sex traffic t-smcy Jo^.e\i^n Cambpeu uvnereos

i

Taosnva 5tra\t -Void -the pactcythcw Jocyceicyn cambpeu'needed to

f

earn her cxun deeps'" ajtncn Sucjcyest that jou^e\an cambpeU uuas
I

not a Victim to sex trafu»ciVinc^ pnor to statements made b<^
tausVna strait and provides a clear snouaincyas to -taosnia straits
extreme need to provide a perjured testimony, dcx^eivyi cambpeu stated
fnat she did not have sex a>Wn ana of- her clients, but taushia stra.it

■}

!

ccrroberatirc^ s forement safest that She did, usvv.c n Vs perduruy
Erin c. Siondeis aropment to evidence sc^c^estvrx^that Taoshva
Strait uuas eye-. iTij^ct Sex traH-ictaxx^ dou^cei^n cambpeu uJas that
s'*

sr\e. cyst tired otdcinaau the uuorw nerseif/'bev;- tired of doincy

all Hoe usorit u^urseif Ts not eye-ends to Su opjeat that an innocent
person shoo id be convicted of a crime that one did not commit.
Durmcy tna\ a*'rule IdviShia strait usas oyv.nc^ the test, men

3

?

coortream cameras aim provide that taosnia. straw teas coached
biyfhe cyj vernmenr^Xt uaas said bey Ervn c.\2>iorvde\cWnnc\ hricA that
the par toy sncaeci recvwess d.s records *n his deaA. rj aJi tn Jocyc euyn

5

cambpei i, but to the con trac oyev-.dence osiA provide that to be
false . Let •. t be noted trot the partoyujas also Pausuy accused

i

\
\
f

of- enaaainci »n production uy.th Jounce Vyn cambpeU-'The par toy
ujou'ici line't-o note that fehebcase uuas reass.oyned to dede^

i

Loc-.se w. Fianaaon at the discretion of- the court on the Vtfn cia^
OF September, 2bio For the means to c'na

e the courts venue
"3
ujit'noot rec|oest to ar permission From the defense. A foretta

3

motion uuas filed bey the povetuy which uses considered a motion
■to ujithdrcuxs bey the attor ne^ os \ i a m wcoduaard webb Sr- A hecr-.i
mas held on -the 26th dauyof October, 2013; rec^xrdi nc^ the motion
to uJ\ tndracs , dervm the hearvna it euas stated
,Xm hred of this moorish crap

•3

ccu.se w, Fianatjen

{

!

i 3 oP 13.

i
refern

to

oaticnaA cv\a^n 3 As the heart na confinued

rhe per

■

L Guise w. Fla-,•naa^iO then shades that "'hne part^ vs a victim and

1

s.

i

hes been lied to record >no^ ms inFormation, and heb pro'oo.t>\u^
Spent aiot oP mone^ For false informa-hcn Tne parv^ h03 requested
l_Gu;se w^rlanaaan to provide fne deiec^xt.on of aothorite. shcxjuwna
that she

3
has authorita over the matter and that the matter

!
i
!
3

3

;

ouas i n the proper court, and to provide the ocxth oF office Shoaiih
that She has to uphold the conshtotio-n asa dudc^each recjoest
ujas raised on several ocassions and ojqs disregarded each time.

3

JXt ajas said that a order u;as issued bu^ Uouise w, Flanac^xn

5

?
I

depriving the par-f^ From chscovero co'nieh led to the attorneon's
OF icohich rhe part^ never spoiie ujith to ujrfnald evidence

3

that ojos Favorable in his coin defense,Upon feceipr oF

I

;

acKnouii ecbina mitcheU a* stairs as the attorney F-or the appeal
the part<^ has mode a qreat effort m contact. na the attcrnec^

1
i

1i
!
5

ujhereas riivfcneU <n. Stairs, reposes to have ancycontact uj\th
■the part a nor does he P.nd it relevant to aro^fe. an^of the
appeal issues Pound in this \etter.8a^mct\on the porta has moved
to re neve mitcheU asters as counsel and tusice it has been
denvedjUJhicn turned tne partu^ tO Pill na o cease and desist order
to the U-S, district court For the eastern district fB.3-l-ct~30ci‘-rD)
oF North Carolina for the

violation of the sixth Amendment’s

i

i

I
<

}
S

■ !

r
;

!
i

ric^ht to counsel clause For ineffectiveness.xt is aiso to be noted

i

that the parta^has filed Cwi\ actions ac^xvnst will.am woaciuoavd

j

uebb sr, wi iiiam woockuard webb Jr, magistrate dudo^ dames £
crates, anci Louise W-Flanoo^xn Far several of their violations
as shousn in this letter, actions uvere Piled «n the eastern

i

i
1

district of North Carolina f5;ail-ct-3OC^i-80),

i

I

Appendtx c
Banzet, Thompson, Styers & May, P.L.L.C.
ATTORNEYS AT LAW
PO Box 535 • 101 North Front Street • Warrenton, NC 27589
MITCHELL G. STYERS
ROBERTT. MAY, JR.
Jill Neville

Telephone 252-257-3166
Facsimile 252-257-2053

January 26, 2021
Mr. Brandon M. Jennings Reg. No: 65213-056
USP Hazelton
U.S. Peniteniary
P.O. Box 2000
Bruceton Mills, WV 26525

Re:

Fourth Circuit Appeal No. 20-4432

Dear Brandon,
»„

I hope you are doing well. I am enclosing a copy of the appeal brief and joint appendix
which I filed on your behalf. The BOP does not allow me to send the sealed volume of the joint
appendix because it contains the Presentence Report. I have raised as your issue on appeal, the
fact that the district court erred in allowing the expert testimony of Dr. Sharon Cooper, the
Government failed to introduce sufficient evidence to convict on Counts 3 and 4, and the district
court did not give adequate reasons why it gave you the lifetime sentence.
The Government will file its response brief in 60-90 days. I will send you a copy of their
brief when I receive it.

,/"V,

Please let me know if you have any questions and let me know that you received this
letter. Contact me if you have further questions.
Sincerely,
J
4

Mitchell G. Styers

A

A

Appendix. D
Banzet, Thompson, Styers & May, P.L.L.C.
ATTORN EYS AT LAW
PO Box 535 • 101 North Front Street • Warrenton, NC 27589
MITCHELL G. STYERS
ROBERT T. MAY, JR.
JILL A. NEVILLE

Telephone 252-257-3166
Facsimile 252-257-2053

August 27, 2020
Piedmont Regional Jail
Mr. Brandon M. Jennings Reg. No: 65213-056
801 Industrial Park Rd.
Farmville, VA 23901
Re:

Appeal to 4th Circuit

Dear Brandon,
Hope you are well. I am enclosing a copy of the Appearance of Counsel form for your
records.
Please let me know you have received this letter and if you have further questions.
Sincerely,

Mitchell G. Styers
Lx''

OtjT' cJ^vAtA^S

0clA/\

fu<>

-2

■ t*

UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

APPEARANCE OF COUNSEL FORM Apperdvx $
BAR ADMISSION & ECF REGISTRATION: If you have not been admitted to practice before the Fourth Circuit,
you must complete and return an Application for Admission before fding this form. If you were admitted to practice
under a different name than you are now using, you must include your former name when completing this form so that we
can locate you on the attorney roll. Electronic filing by counsel is required in all Fourth Circuit cases. If you have not
registered as a Fourth Circuit ECF Filer, please complete the required steps at Register for eFiling.
THE CLERK WILL ENTER MY APPEARANCE IN APPEAL NO. 20-4432
[^Retained 0Court-appointed(CJA) I ICJA associate I
QPro Bono |

ICourt-assigned(non-CJA) |

as
jFederal Defender

[Government

COUNSEL FOR: Brandon Marquis Jennings

_________ __________________ _

as the
(party name)
j l^|appellant(s)|

|appellee(s) |

| petitioncr(s) |

[respondents)]

|

amicus curiae |

|intervenor(s) |

|movant(s)

Is/ Mitchell G. Styers
(signature)
Please compare your information below with your information on PACER. Any updates or changes must be
made through PACER’s Manage My Account.

Mitchell G. Styers
Name (printed or typed)

252-257-3166
Voice Phone

Banzet, Thompson, Styers & May, PLLC

252-257-2053

Firm Name (if applicable)

Fax Number

PO Box 535
Warrenton, NC 27589

mitchstyers@banzetlaw.com

Address

E-mail address (print or type)

CERTIFICATE OF SERVICE (requiredfor parties served outside CM/ECF): I certify that this document was
served on 8/27/2020 by [^] personal delivery; \^\ mail;
third-party commercial carrier; or l | email (with
written consent) on the following persons at the addresses or email addresses shown:
Brandon M. Jennings Reg. No. 65213-056
Piedmont Regional Jail
801 Industrial Park Rd
Farmville, VA 23901

Is/ Mitchell G. Styers
Signature
1/28/2020 SCC

8/27/2020
Date

Banzet, Thompson, Styers

Appendix E
& May, P.L.L.C.

ATTORNEYS AT LAW
PO Box 535 • 101 North Front Street • Warrenton, NC 27589
MITCHELL G. STYERS
ROBERT T. MAY. JR.
Jill Neville

Telephone 252-257-3166
Facsimile 252-257-2053

January 26, 2021
Mr. Brandon M. Jennings Reg. No: 65213-056
USP Hazelton
U.S. Peniteniary
P.O. Box 2000
Bruceton Mills, WV 26525

Re:

Fourth Circuit Appeal No. 20-4432

Dear Brandon,
I am enclosing a copy of my response to your motion to reconsider, as required by the
Court’s notice for a response.
Sincerely,

Mitchell G. Styers

Appendix.

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-4432
UNITED STATES OF AMERICA,

)
)

vs.
BRANDON MARQUIS JENNINGS,
Appellant.

)
)
)
)
)

COUNSEL’S RESPONSE TO
APPELLANT’S PRO SE MOTION
FOR RECONSIDERATION
OF ORDER DENYING MOTION
TO RELIEVE COUNSEL

NOW COMES the undersigned counsel, and hereby responding to the Appellant’s
pro se motion for reconsideration of this Court’s order denying Appellant’s motion to relieve
counsel. [DE: 33].
On or about December 8, 2020, this Court entered an order denying Appellant’s
previous Motion to Relieve Counsel. The Appellant now moving this Court to reconsider its
previous order. The undersigned counsel has communicated with the Appellant and has
filed an appeal brief on his behalf, raising several issues on appeal, as of January 19,2021.
Counsel contends there are no grounds for substitution of counsel, but ultimately leaves the
decision to the Court’s discretion.
Respectfully submitted this the 26th day of January, 2021.
/s/ Mitchell G. Stvers____________
Mitchell G. Styers
Counsel for Appellant
BANZET, THOMPSON, STYERS & MAY, PLLC
P. O. Box 535
Warrenton, NC 27589
Telephone: (252) 257-3166
Facsimile: (252) 257-2053
North Carolina Bar No. 24553

i i

Appendix E

CERTIFICATE OF SERVICE
I hereby certify that the foregoing Response was served on the following person(s)
by electronic filing and by mailing a copy thereof, post prepaid (respectively), to:
Jennifer P. May-Parker
Assistant U. S. Attorney
usance.ecfappeals@usdoj .gov
Mr. Brandon M. Jennings
P.O. Box 2000
Bruceton Mills, WV 26525
Respectfully submitted this the 26th day of January, 2021.

/s/ Mitchell G. Stvers___________
Mitchell G. Styers
Counsel for Appellant
BANZET, THOMPSON, STYERS & MAY, PLLC
P. O. Box 535
Warrenton, NC 27589
Telephone: (252) 257-3166
Facsimile: (252) 257-2053
North Carolina Bar No. 24553

-*

Appends P

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
1100 East Main Street, Suite 501, Richmond, Virginia 23219

December 8, 2020

PARTY-ATTORNEY NOTICE
UNDER CRIMINAL JUSTICE ACT

No. 20-4432,

US v. Brandon Jennings
5:18-cr-00318-FL-1

Counsel and the parties are advised as follows:
• Counsel is obliged to keep the defendant informed of the progress of the
appeal and the issues to be pursued, and it is the defendant's duty to
cooperate with counsel. The determination of which issues the appeal record
will support is within counsel's professional judgment.
• Counsel shall provide the defendant with a copy of the appeal brief and
appendix (or the Anders brief and record). Counsel is also authorized to
make additional copies of necessary record documents and claim
reimbursement of expenses under the CJA up to $300 ($.15 per page)
without moving for prior approval.
• Motions and other requests in the case must be filed with the court by
counsel rather than by the defendant, though the defendant may file a pro se
motion to relieve counsel or for substitution of counsel and may also file a
pro se motion for leave to file a pro se supplemental brief, accompanied by
the brief.
• The defendant's dissatisfaction with the issues raised on appeal is not
sufficient grounds for a motion to relieve counsel.
• The defendant's dissatisfaction with the issues raised by counsel is generally
not sufficient grounds for filing of a pro se supplemental brief. The
defendant has a right to file a pro se supplemental brief only in cases
proceeding under Anders v. California, 386 U.S. 738 (1967). In other cases,
the defendant may file a motion to file pro se supplemental brief,
accompanied by the brief. The court will consider and rule upon any motion
to file pro se supplemental brief when the appeal is reviewed on the merits.

t
f

1

i

Joy Hargett Moore, Deputy Clerk
804-916-2702

Appends T-

uoomh

rtppeai.

f

Bu} iz/uo/z.uzu

uw. /lo- i

ry. i ui i

Append** F

FILED: December 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-4432
(5:18-cr-00318-FL-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
BRANDON MARQUIS JENNINGS, a/k/a Smilez, a/k/a Smilez Finesse, a/k/a
Beezy, Mustafa Bey
Defendant - Appellant

ORDER
The court denies the motion for substitution of counsel on appeal.
For the Court—By Direction
/s/ Patricia S. Connor, Clerk

i

Appendix (a

1

United States District Court
Eastern District of North Carolina
Office of the Clerk
PO Box 25670
Raleigh, North Carolina 27611
Phone (919) 645-1700
Fax (919) 645-1750

Peter A. Moore Jr.
Clerk of Court

April 5, 2021

Brandon Marquis Jennings #65213-056
Hazelton - U.S.P.
P.O. Box 2000
Bruceton Mills, WV 26525
Re: Jennings v. Styers
5:21-CT-3094-D
Dear Mr. Jennings,
Our office has received and filed your complaint. Your case has been given the above-indicated
docket number. Please use this number when submitting documents for filing in this case.
If your address changes, a notice of your change of address should be sent to the Clerk's office.
If you want a copy of a filing returned to you, a stamped, self-addressed envelope and an extra
copy of the document must be provided.
Upon receipt, your documents are scanned and the scanned copy becomes the official record of
the court. To assist with the best possible scan, please adhere to the following.
• Use 8 1/2" by 11" white, paper.
• All documents must include an original signature. The "/s/ typed name" is for electronic
filers only.
• Do not highlight your documents. When scanned, highlights look like black lines and
you cannot read the text below the highlight.
• Leave a margin. If you write at the very top and very bottom of your paper, most likely,
some of your handwriting will be cut off when scanned.
• Number your pages. This helps us keep your papers organized and in the correct order.
• Do not tape your papers. Tape clogs up the scanner and causes pages to rip.
Thank you for your cooperation.
Sincerely,
/s/ Peter A. Moore, Jr.
Clerk of Court
PAM/ai

Appendix H

T" '

FILED: March 25, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-4432
(5:18-cr-00318-FL-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee

1

v.
BRANDON MARQUIS JENNINGS, a/k/a Smilez, a/k/a Smilez Finesse, a/k/a
Beezy, Mustafa Bey
Defendant - Appellant

ORDER
Appellant has filed a motion to relieve counsel and for leave to file a pro se
supplemental brief.
The court denies the motion to relieve counsel from further representation on
appeal. The motion for leave to file a pro se supplemental brief is denied without
prejudice to refiling, accompanied by the pro se supplemental brief.
For the Court-By Direction
/s/ Patricia S. Connor, Clerk

